Cr-

Certificate of Service
10/6/2021
No.
IN THE

Jiuprmte (Hourt of ilptmteh States
Kevin K. Tung, on behalf of himself and all others
SIMILARLY SITUATED, PETITIONER
V.

Superior Court of New Jersey; Stuart Rabner,
CHIEF JUSTICE OF THE SUPREME COURT OF NEW JERSEY;
Glenn A. Grant, acting administrative director of
THE NEW JERSEY COURTS; CARMEN MESSANO, PRESIDING
JUDGE FOR ADMINISTRATION FOR THE APPELLATE
DIVISION; JOHN/JANE DOE, ADMINISTRATORS OF THE NEW
JERSEY SUPERIOR COURT
PETITION FOR WRIT OF CERTIORARI

I hereby certify that I am this day serving the foregoing
document upon the person(s) and in the manner indicated below.
Electronic service as follows:
Robert J. McGuire, Esq.
Direct: 609-376-2787
Email: robert.mcguire@law.njoag.gov
Fax: 609-633-7434
[COR NTC State Government]
Office of Attorney General of New Jersey
Division of Law
25 Market Street
Hughes Justice Complex
Trenton, NJ 08625

Respectfi

iubmitted,

Rod*Ourr¥CWrry & Taylor
1726 Nevada Ave NE
St. Petersburg, FL 33703
(202) 350-9073

RECEIVED
0CT 1 3 2021

